TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Correspondence Imaging System
                  Performance Has Improved, but Additional
                  Measures Are Needed to Ensure That the
                        System Performs As Expected



                                            July 9, 2008

                              Reference Number: 2008-20-130




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  July 9, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Correspondence Imaging System Performance
                              Has Improved, but Additional Measures Are Needed to Ensure That the
                              System Performs As Expected (Audit # 200720011)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) had established and implemented adequate internal controls to ensure the stability
 and performance of the Correspondence Imaging System (hereafter referred to as the CIS or
 System) and to ensure proper planning for its future merger with the Accounts Management
 Services system.1 This review was part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2007 Annual Audit Plan coverage.

 Impact on the Taxpayer
 The IRS has spent approximately $32 million to develop and implement the CIS to scan and
 convert the millions of pieces of incoming taxpayer correspondence to digital images. While the
 IRS has taken steps to improve the System’s performance, the System continues to experience
 periods of instability and performance issues. The IRS needs to further improve System
 performance and prevent the same instability and performance problems from recurring. Until
 this work is complete, the CIS could continue to experience periods of instability and
 performance issues that might affect the IRS’ ability to provide efficient and effective service to
 taxpayers.




 1
  The Accounts Management Services system is being developed to provide an integrated approach to view, access,
 update, and manage taxpayer accounts by providing IRS employees with the tools to access information quickly and
 accurately in response to complex customer inquiries and to update taxpayer accounts on demand.
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



Synopsis
The IRS is responsible for processing individual and business taxpayer correspondence and
forms at 10 campus2 locations. As of January 2008, the IRS had spent approximately
$32 million to develop and implement the CIS to scan and convert incoming taxpayer
correspondence to digital images. With this System, IRS customer service representatives can
access correspondence electronically and use new automated procedures that should benefit the
IRS and taxpayers.
In January 2007, the CIS became so unstable that the IRS decided to shut it down for
approximately 1 month and revert to use of manual procedures for processing taxpayer
correspondence. The IRS was able to identify and resolve the specific issues that caused the
January 2007 problems. However, the System continues to experience random periods of
instability and performance issues. The IRS and its contractor did not follow appropriate
requirements management processes for developing, documenting, and testing System
performance requirements.3 If the IRS does not follow critical requirements management
processes, the CIS could continue to experience instability and performance issues.
In 2007, the IRS submitted a CIS business case providing key information for Budget Year 2009
to the Department of the Treasury and the Office of Management and Budget. However, this
business case did not disclose the IRS’ plans to merge the CIS with the Accounts Management
Services system, and the IRS overstated the estimated costs and benefits of the CIS by
$115.4 million and $86.2 million, respectively. As a result, information used by the Department
of the Treasury and the Office of Management and Budget to make financial budget decisions
related to the CIS project was incomplete and inaccurate. Subsequent to the completion of audit
fieldwork, the IRS requested approval to merge the systems as instructed by Department of the
Treasury guidance.

Recommendations
The Chief Information Officer should ensure that 1) corrective actions taken subsequent to our
audit work to address the open recommendations identified by the Incident Analysis Team4 have
been completed and were effective in improving CIS performance, 2) adequate actions are taken
to reduce and prevent the same instability and performance issues from recurring after the CIS is

2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  Requirements management processes are designed to ensure that a system will perform in accordance with user
expectations.
4
  The Incident Analysis Team was coordinated by the Enterprise Services organization Systems Integration function
and included representatives from the Applications Development, Enterprise Operations, End User Equipment and
Services, and Enterprise Networks organizations and the CIS Business Project Office.
                                                                                                                2
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected


merged with the Accounts Management Services system, and 3) IRS project officials make a
timely request for Department of the Treasury approval to merge and close investments and
restate expected costs and benefits.

Response
IRS management agreed with all of our recommendations. Corrective actions taken or planned
include 1) providing a document showing the successful completion of each Incident Analysis
Team recommendation, action, and result to the Customer Service Executive Steering
Committee5 and the Treasury Inspector General for Tax Administration, 2) implementing the
Accounts Management Services system with a complete re-architecture of the CIS, 3) giving
presentations to the Executive Steering Committees as part of the enterprise governance process
to reinforce the need to secure Department of the Treasury approval when a decision to merge
investments has been made, and 4) preparing the new CIS business case (Office of Management
and Budget Exhibit 300) required to effectively merge the CIS and Accounts Management
Services system investments and restating the expected costs and benefits. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at 202-622-6510 if you have questions or
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems
Programs), at 202-622-5894.




5
  The Executive Steering Committee oversees investments, including validating major investment business
requirements and ensuring that enabling technologies are defined, developed, and implemented.
                                                                                                          3
                    Correspondence Imaging System Performance Has Improved, but
                      Additional Measures Are Needed to Ensure That the System
                                        Performs As Expected




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Taken Steps to Improve the
          Performance of the Correspondence Imaging System..................................Page 3
          The Correspondence Imaging System Continues to Experience
          Random Periods of Instability and Performance Issues ...............................Page 4
                    Recommendation 1:..........................................................Page 5

                    Recommendation 2:..........................................................Page 6

          System Performance Requirements Were Not Adequately
          Managed and Tested .....................................................................................Page 6
          Information in the Correspondence Imaging System Business Case
          Was Incomplete and Inaccurate. ...................................................................Page 8
                    Recommendation 3:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Incident Analysis Team Report Recommendations
          and Corrective Actions .................................................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
      Correspondence Imaging System Performance Has Improved, but
        Additional Measures Are Needed to Ensure That the System
                          Performs As Expected




                      Abbreviations

CIS             Correspondence Imaging System
IRS             Internal Revenue Service
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected




                                            Background

The Internal Revenue Service (IRS) processes individual and business taxpayer correspondence
and forms at 10 campus1 locations. IRS customer service representatives and tax examiners
handle millions of cases containing correspondence generated in multiple formats by taxpayers.
Correspondence might include items such as taxpayer-generated letters, responses to tax notices,
amended tax returns, and claims documents, which are processed by customer service
representatives from the Accounts Management function within the Wage and Investment
Division.
As of January 2008, the IRS had spent approximately              The IRS has spent about
$32 million to develop and implement the                        $32 million to develop and
Correspondence Imaging System (hereafter referred to                 implement the CIS.
as the CIS or System) to scan and convert incoming
taxpayer correspondence to digital images. Prior to
implementation of the CIS, IRS personnel performed manually intensive procedures to process
correspondence items. The prior manual system made it difficult for the IRS to meet its goal of
resolving taxpayer inquiries, claims, and adjustment requests in a timely manner.
The purposes of the CIS are to 1) provide an automated process for electronically imaging all
correspondence items with improved inventory controls, and 2) reduce the time needed to
resolve taxpayer requests. With this System, customer service representatives can access
correspondence electronically while simultaneously working with other existing management
systems to more effectively process taxpayer information. The IRS expects to process about
7 million CIS cases each year, with as many as 8,200 users on the System at peak processing
times. Some manual procedures are still needed to process correspondence items. However, the
conversion of paper documents into electronic media and the new automated procedures provide
significant benefits to both the IRS and taxpayers.
The CIS was developed and implemented in two different releases.2 Release 1 related to
Individual Master File3 accounts and was deployed between Calendar Years 2003 and 2005 at
the following five IRS campuses:
    •   Austin, Texas (initial pilot location) – November 2003.
    •   Atlanta, Georgia – July 2004.


1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  A release is a specific edition of software.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 1
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



    •   Kansas City, Missouri – October 2004.
    •   Andover, Massachusetts – January 2005.
    •   Fresno, California – July 2005.
Release 2 provided additional system functionality and was deployed at three additional
Individual Master File campus locations. This Release also included the ability to process
Business Master File4 accounts in two IRS campuses. The IRS has deployed or is scheduled to
deploy Release 2 at the following five campuses:
    •   Brookhaven, New York – March 2006.
    •   Memphis, Tennessee – July 2006.
    •   Philadelphia, Pennsylvania – April 2007.
    •   Cincinnati, Ohio (Business Master File site) – March 2008.
    •   Ogden, Utah (Business Master File site) – scheduled for June 2008.
This review was performed at the Atlanta Campus and at the offices of the CIS administrators in
Austin, Texas, during the period June 2007 through February 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
 The IRS database that consists of Federal tax-related transactions and accounts for business. These include
employment taxes on businesses and excise taxes.
                                                                                                               Page 2
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected




                                     Results of Review

The Internal Revenue Service Has Taken Steps to Improve the
Performance of the Correspondence Imaging System
The CIS has significantly improved the timeliness and efficiency of processing taxpayer
correspondence cases in the campus locations where it has been deployed. The IRS relies on an
effectively operating CIS to provide high employee and, ultimately, customer satisfaction by
reducing the burden of handling large volumes of paper documents. IRS customer service
representatives and tax examiners nationwide are now using a number of automated processes as
a result of the CIS to more efficiently deliver work and better manage inventories.
In January 2007, the CIS experienced unacceptable levels of instability and performance
problems that affected the IRS’ ability to conduct critical business functions. The IRS took
several actions to improve the performance of the System. For example, it identified the main
reason why the January 2007 System problems occurred and took steps to fix the problems. The
IRS also formed an Incident Analysis Team5 in February 2007 to assess additional performance
problems affecting the System.

Actions taken to identify and resolve stability and performance problems
In January 2007, the CIS was upgraded with a third-party software product that had unexpected
stability and performance effects on the System. Because of the stability problems, the IRS
decided to shut down the System for approximately 1 month and revert to use of manual
procedures for processing taxpayer correspondence. The performance problems also
significantly delayed final deployment of the CIS to the Cincinnati and Ogden Campuses.
In late February 2007, the IRS was able to identify the problems caused by the software upgrade
and focus its resolution efforts on correcting them. As part of the resolution process, the IRS
installed a monitoring tool to assess, track, and report the functions and performance of the
System. These actions seemed to address the specific problems caused by the software upgrade.
However, the CIS continued to experience stability and performance issues.
In response, the IRS formed the Incident Analysis Team to investigate the causes of the System’s
instability and to recommend changes that would address those problems. The Team analyzed
all CIS problems that occurred from January 10 through June 17, 2007, and classified them into

5
 The Incident Analysis Team was coordinated by the Enterprise Services organization Systems Integration function
and included representatives from the Applications Development, Enterprise Operations, End User Equipment and
Services, and Enterprise Networks organizations and the CIS Business Project Office.
                                                                                                        Page 3
               Correspondence Imaging System Performance Has Improved, but
                 Additional Measures Are Needed to Ensure That the System
                                   Performs As Expected



six major categories. The results of the Incident Analysis Team analysis were completed in
June 2007, and the Team prepared a report containing seven recommendations to address the
performance problems. The IRS developed 26 corrective actions in response to the
7 recommendations.
As of January 2008, the IRS had taken steps to complete 18 of the 26 corrective actions. The
remaining eight open corrective actions correspond to five of the recommendations made in the
Incident Analysis Team report. Specific details on the status of the recommendations and
corrective actions are included in Appendix V. According to the IRS, it is continuing work to
complete the corrective actions by their assigned due dates.

The Correspondence Imaging System Continues to Experience
Random Periods of Instability and Performance Issues
The IRS assesses the stability of the CIS based on System availability. The System is deemed
stable if downtime (any period when users cannot use the CIS to work and close cases) does not
exceed 4 hours during a 14-day period. The IRS measures downtime by how long the System is
unavailable and the number of locations affected. The results are cumulative. For example, if
the CIS was not available for 2 hours and the downtime affected 8 IRS locations, the cumulative
downtime would be 16 hours.
Based on the IRS criteria for System stability, CIS
performance has significantly improved. In fact, the IRS
reported the System was operational more than 98 percent of         The CIS continues to experience
the time during Fiscal Year 2007. The IRS declared the CIS              periods of instability and
                                                                          performance issues.
stable on August 21, 2007, because it had not had any
downtime longer than 4 hours for a 14-day period. However,
the System continues to experience random periods of
instability and performance issues. The IRS was unable to maintain a consistent level of
stability, and the System was unavailable for significant periods of time on several occasions
during the last 3 months of Calendar Year 2007. For example, the CIS was down:
   •   On October 17 approximately 1.5 hours affecting all 8 locations resulting in 12 site hours
       of impact.
   •   On October 31 approximately 0.5 hour affecting all 8 locations resulting in 4 site hours of
       impact.
   •   On November 19 approximately 2.3 hours affecting all 8 locations resulting in 18 site
       hours of impact.
   •   On December 10 approximately 7.5 hours affecting 3 locations resulting in 23 site hours
       of impact.
   •   On December 11 approximately 2.3 hours affecting all 8 locations resulting in 18 site
       hours of impact.
                                                                                           Page 4
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



    •   On December 19 approximately 1.4 hours affecting all 8 locations resulting in 12 site
        hours of impact.
We believe that the continued instability and performance problems persist, at least in part,
because the IRS has not completed all of the corrective actions to address the recommendations
made by the Incident Analysis Team. As of January 2008, 8 of the 26 corrective actions were
still open. For example, one of the open corrective actions is to test the Disaster
Recovery/Replication process. This corrective action was scheduled for completion on
December 15, 2007, but is still outstanding. IRS customer service representatives rely heavily
on the CIS to perform critical day-to-day operations. A complete and tested disaster recovery
process provides the ability to effectively respond to disasters that could affect the System. If the
CIS continues to experience random periods of instability and performance issues, the IRS could:
    •   Experience further loss of productivity. For example, each hour of System downtime at
        all CIS locations prevents the IRS from closing approximately 1,500 adjustment cases
        and results in lost productivity of about $130,000.
    •   Require additional resources to continue researching, responding to, and resolving
        problems with the System.
    •   Experience reduced or diminished value from the Incident Analysis Team study and
        recommendations.
    •   Experience similar instability and performance issues after the CIS is merged with the
        Accounts Management Services system.6
Management Action: Subsequent to the completion of audit fieldwork, the IRS provided a report
dated April 9, 2008, showing that the remaining open corrective actions were closed. However,
we did not obtain additional information and validate the closure of the actions.

Recommendations
The Chief Information Officer should ensure that:
Recommendation 1: The corrective actions taken subsequent to our audit work to address the
open recommendations identified by the Incident Analysis Team have been completed and were
effective in improving CIS performance.
        Management’s Response: IRS management agreed with this recommendation. The
        Applications Development organization, partnering with the Enterprise Operations
        organization, provided a document showing the successful completion of each Incident

6
 The Accounts Management Services system is being developed to provide an integrated approach to view, access,
update, and manage taxpayer accounts by providing IRS employees with the tools to access information quickly and
accurately in response to complex customer inquiries and to update taxpayer accounts on demand.
                                                                                                        Page 5
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



        Analysis Team recommendation, action, and result to the Customer Service Executive
        Steering Committee7 and the Treasury Inspector General for Tax Administration. The
        stability, availability, and performance improvements achieved through implementation
        of the Incident Analysis Team recommendations resulted in unanimous approval by the
        Customer Service Executive Steering Committee to close Incident Analysis Team status
        reporting on May 28, 2008.
Recommendation 2: Adequate actions are taken to reduce and prevent the same instability
and performance issues from occurring after the CIS is merged with the Accounts Management
Services system.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS will implement Accounts Management Services system Release 1.3, which is a
        complete re-architecture of the CIS. This will ensure that adequate actions are taken to
        reduce and prevent instability and performance issues once the CIS has merged with the
        Accounts Management Services system.

System Performance Requirements Were Not Adequately Managed
and Tested
The IRS and its contractor did not follow appropriate requirements management processes for
developing, documenting, and testing performance requirements. For example, the IRS
developed 17 performance requirements for CIS Release 1 but could not provide us with
documentation to verify that those performance requirements were adequately tested and
accepted by all stakeholders. For CIS Release 2, the IRS relied on the performance requirements
developed from Release 1. According to the IRS contractor working on the System, the
17 performance requirements developed by the IRS were not sufficient and did not provide
adequate information to be measurable. Therefore, the contractor developed and tested other
performance requirements, which were not reviewed and approved by IRS officials. The IRS
provided us with the performance tests conducted by the contractor. However, none of the test
results were validated or measured against pre-defined and approved performance requirements.
The IRS Modernization and Information Technology Services Handbook states that the
stakeholders of a system should define the performance requirements to identify and document
the needs and capabilities of the system. Requirements should be unambiguous, traceable,
complete, verifiable, and measurable. Stakeholders are also responsible for validating and
approving the system requirements with test results that are documented and compared to
expected results.



7
  The Executive Steering Committee oversees investments, including validating major investment business
requirements and ensuring that enabling technologies are defined, developed, and implemented.
                                                                                                          Page 6
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



Requirements management processes are designed to ensure that a system will perform in
accordance with user expectations. If the IRS does not follow critical requirements management
processes, the CIS could continue to experience instability and performance issues. In addition,
the IRS might be unable to achieve all of the business performance goals expected from
deploying the System. Over the past 3 years, the IRS has been unable to achieve three of the
four business performance goals set for the System. Figure 1 provides the CIS business
performance goals and results for Fiscal Years 2005 - 2007.
                                Figure 1: CIS Performance Goals

                                                        Fiscal Year          Fiscal Year       Fiscal Year
                Performance Goals
                                                        2005 Result          2006 Result       2007 Result
    Reduce the number of days to close cases to          44 calendar         50 calendar       46 calendar
    30 calendar days.                                       days                days              days
    Increase System availability to 99.97%.              No Measure          No Measure          98.21%
    Reduce the over-age case percentage to 15%.              13%                 23%              28.4%
    Increase the number of cases controlled on              80.1%               80.1%             86.1%
    the System to 85%.
Source: IRS-provided performance measures worksheet for Fiscal Years 2005 and 2006 and the CIS business case
(Office of Management and Budget Exhibit 300) submission.

While other factors such as staff reductions might contribute to the IRS’ inability to achieve the
stated CIS performance goals, appropriate requirements management processes are critical to the
success of systems project development. We have previously reported on weaknesses in the
IRS’ requirements management process8 and have provided recommendations to improve the
process. The IRS is currently working on several corrective actions for those recommendations
that, if taken appropriately, will address the same requirements management issues discussed in
this report. Therefore, we are including no additional recommendation related to this issue.




8
 The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
Development and Management Problems (Reference Number 2005-20-023, dated January 2005) and The
Modernized E-file Project Can Improve Its Management of Requirements (Reference Number 2007-20-099, dated
July 9, 2007).
                                                                                                     Page 7
               Correspondence Imaging System Performance Has Improved, but
                 Additional Measures Are Needed to Ensure That the System
                                   Performs As Expected




Information in the Correspondence Imaging System Business Case
Was Incomplete and Inaccurate
The IRS has provided information to the Department of the Treasury and the Office of
Management and Budget to make financial budget decisions related to the CIS project. The
primary tool used to report the information was the CIS business case (Office of Management
and Budget Exhibit 300). However, some information in the System business case was
incomplete and inaccurate and, as a result, the IRS overstated the estimated costs and benefits of
the System by $115.4 million and $86.2 million, respectively.
A project business case provides key information related to IRS investments on capital assets and
information technology projects. Key information includes estimated costs, benefits, and
financial indicators for the investments. It is used by IRS, Department of the Treasury, and
Office of Management and Budget officials to ensure that Federal Government resources are
spent wisely and to improve upon asset management. All information contained in a project
business case should be accurate, succinct, and up-to-date.
Information included in a business case represents the baseline for an investment and includes
cost, schedule, and performance goals. Any major changes to information technology
investments (e.g., a significant change to the scope of an investment or the merging of two or
more investments) must be approved by the IRS Chief Information Officer, the Department of
the Treasury, and the Office of Management and Budget before being implemented. A Baseline
Change Request should be prepared to document the proposed changes to the investment
baseline and be approved prior to submission of a new business case.
In Calendar Year 2006, the IRS decided to merge the CIS with the new Accounts Management
Services system. The merger is scheduled to be completed in November 2008 and will result in
the retirement of the CIS. However, the IRS did not prepare and submit a Baseline Change
Request for the planned merger before it submitted the Budget Year 2009 CIS business case in
2007. Because the planned merger was not approved by the Department of the Treasury and the
Office of Management and Budget, the Budget Year 2009 business case did not disclose the IRS’
plans to merge the CIS with the Accounts Management Services system. The CIS business case
showed that the System would remain operational through Fiscal Year 2017. The IRS also
projected costs and benefits in the System business case through Fiscal Year 2017, even though
the System would no longer exist after Fiscal Year 2009. The Accounts Management Services
system Budget Year 2009 business case did report the planned merger, but it was not consistent
with the information presented in the CIS business case.
The CIS business case contained inaccurate information because the IRS did not take timely
actions to prepare a Baseline Change Request. Several IRS officials did not fully understand the
requirements for preparing a business case or a Baseline Change Request in situations where two
information technology systems are merged.

                                                                                            Page 8
                Correspondence Imaging System Performance Has Improved, but
                  Additional Measures Are Needed to Ensure That the System
                                    Performs As Expected



We have found similar problems related to the reliability of information contained in IRS
business cases in prior audits.9 For those audits, we issued reports with several recommendations
designed to improve the reliability of IRS business cases.
Management Action: Subsequent to the completion of audit fieldwork, the IRS provided a copy
of a May 13, 2008, memorandum to the Department of the Treasury Capital Planning and
Investment Control Desk Officer requesting approval of the Account Management Services
system and CIS merger. The IRS requested approval to merge the systems as instructed by
Department of the Treasury guidance in the Information Technology, Capital Planning and
Investment Control Policy Guide, Appendix H - Closing and Merging Major Information
Technology Investments.

Recommendation
Recommendation 3: The Chief Information Officer should ensure that IRS project officials
make a timely request for Department of the Treasury approval to merge and close investments
and restate expected costs and benefits.
        Management’s Response: IRS management agreed with this recommendation.
        They will give presentations to the Executive Steering Committees as part of the
        enterprise governance process to reinforce the need to secure Department of the Treasury
        approval when a decision to merge investments has been made. IRS project officials will
        prepare the new Exhibit 300 required to effectively merge the CIS and the Accounts
        Management Services system investments and will restate the expected costs and
        benefits.




9
 Business Cases for Information Technology Projects Need Improvement (Reference Number 2005-20-074, dated
April 2005) and Business Cases for Information Technology Projects Remain Inaccurate (Reference
Number 2007-20-024, dated January 25, 2007).
                                                                                                    Page 9
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall audit objective was to determine whether the IRS had established and implemented
adequate internal controls to ensure the stability and performance of the CIS and to ensure
proper planning for its future merger with the Accounts Management Services system.1 To
accomplish this objective, we:
I.      Determined whether the IRS had taken adequate actions to ensure the stability and
        optimal performance of the CIS by appropriately addressing the recommendations from
        the Incident Analysis Team2 report.
        A. Reviewed status reports on actions taken by the IRS to address each of the nine
           recommendations in the Incident Analysis Team report.
        B. Determined whether the Incident Analysis Team report appropriately identified the
           causes of the stability problems within the CIS.
II.     Determined whether the IRS was achieving the technical and business performance
        standards originally planned for delivery of the CIS. We determined whether the CIS
        consistently has met or is meeting technical and business performance standards.
III.    Determined whether the IRS had adequately planned for merger of the CIS with the
        Accounts Management Services system.
        A. Determined how the CIS will be merged with the Accounts Management Services
           system.
        B. Evaluated the collaboration efforts between CIS and Accounts Management Services
           system officials to ensure that the CIS appropriately merges with the Accounts
           Management Services system.




1
  The Accounts Management Services system is being developed to provide an integrated approach to view, access,
update, and manage taxpayer accounts by providing IRS employees with the tools to access information quickly and
accurately in response to complex customer inquiries and to update taxpayer accounts on demand.
2
  The Incident Analysis Team was coordinated by the Enterprise Services organization Systems Integration function
and included representatives from the Applications Development, Enterprise Operations, End User Equipment and
Services, and Enterprise Networks organizations and the CIS Business Project Office.
                                                                                                        Page 10
             Correspondence Imaging System Performance Has Improved, but
               Additional Measures Are Needed to Ensure That the System
                                 Performs As Expected



IV.   Determined whether the IRS had ensured that the business case for the CIS accurately
      reflected future plans for the CIS.
      A. Determined whether the planned merger of the CIS with the Accounts Management
         Services system was properly reported in the business case for each project.
      B. Determined how future updates to the business cases will reflect future plans for the
         CIS and the Accounts Management Services system.




                                                                                        Page 11
              Correspondence Imaging System Performance Has Improved, but
                Additional Measures Are Needed to Ensure That the System
                                  Performs As Expected



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Scott Macfarlane, Director
Phung-Son Nguyen, Audit Manager
Danny R. Verneuille, Audit Manager
James A. Douglas, Senior Auditor
Paul M. Mitchell, Senior Auditor
Glen J. Rhoades, Senior Auditor




                                                                                      Page 12
             Correspondence Imaging System Performance Has Improved, but
               Additional Measures Are Needed to Ensure That the System
                                 Performs As Expected



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Stakeholder Management OS:CIO:SM
Director, Compliance OS:CIO:AD:C
Director, Corporate Data OS:CIO:AD:CD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Program Oversight Office OS:CIO:SM:PO




                                                                                 Page 13
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



                                                                                             Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $201.6 million (see page 8).

Methodology Used to Measure the Reported Benefit:
The IRS overstated the estimated costs and benefits in the CIS business case, which affected the
reliability of the business case information. The IRS plans to merge the CIS with the Accounts
Management Services system1 in November 2008 and then retire the CIS. However, the IRS
recorded the estimated completion date for the CIS as July 2017, and the CIS business case
includes forecasted costs and benefits up to that completion date. The estimated costs and
benefits for the CIS are overstated by approximately $115.4 million and $86.2 million,
respectively, because they should not have been projected beyond the planned merger date of
November 2008. The overstated costs and benefits were derived from the CIS business case for
estimates beginning with Budget Year 2010 because Budget Year 2009 would have already
started before November 2008.




1
 The Accounts Management Services system is being developed to provide an integrated approach to view, access,
update, and manage taxpayer accounts by providing IRS employees with the tools to access information quickly and
accurately in response to complex customer inquiries and to update taxpayer accounts on demand.
                                                                                                       Page 14
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



                                                                                              Appendix V

               Incident Analysis Team Report
           Recommendations and Corrective Actions

In January 2007, the CIS was experiencing unacceptable levels of system instability. To address
these performance problems, the IRS formed the Incident Analysis Team1 to analyze the causes.
The Team completed its study in June 2007 and issued a report on its findings and
recommendations. CIS project executives created a series of corrective actions to implement the
recommendations.
Figure 1 reflects the status of each recommendation, along with the supporting corrective actions
as of January 2008. It also includes the original due date for each corrective action and the
actual completion date, if available.
               Figure 1: Incident Analysis Team Report Recommendations
                                  and Corrective Actions

                                    Replace unreliable Hewlett Packard servers and expand
      Recommendation 1:             Storage Area Network storage to support all CIS data
                                    management.

                   Corrective Actions                                    Status of Actions
    1 – Obtain one free replacement server from
                                                                   Completed August 14, 2007
    Hewlett Packard.
    2 – Install replacement server designated as
    C1 (Note: Content Manager servers are                          Completed January 14, 2008
    designated as “C1” in some cases).
    3 – Provide specifications for remaining
    server replacements, replacing Redundant
                                                                   Completed August 14, 2007
    Array of Independent Disks arrays with
    Storage Area Network storage.



1
 The Incident Analysis Team was coordinated by the Enterprise Services organization Systems Integration function
and included representatives from the Applications Development, Enterprise Operations, End User Equipment and
Services, and Enterprise Networks organizations and the CIS Business Project Office.
                                                                                                       Page 15
                 Correspondence Imaging System Performance Has Improved, but
                   Additional Measures Are Needed to Ensure That the System
                                     Performs As Expected



     4 – Prepare site for Production and Disaster
                                                                  Completed November 20, 2007
     Recovery Replacement Servers.
     5 – Procure replacement servers and Storage
                                                                  Completed November 20, 2007
     Area Network storage.
     6 – Secure data processing services.                         Completed November 20, 2007
     7 – Get new controller cards from Hewlett
                                                                                 Open
     Packard.

      Recommendation 2:             Service delivery mitigation should continue, including
                                    update to Service Level Agreements.2

                   Corrective Actions                                    Status of Actions
     1 – Secure input from Modernization and
     Information Technology Services
                                                                    Completed August 14, 2007
     organization suppliers on Memorandum of
     Understanding content.
     2 – Identify gaps and redundancy.                              Completed August 14, 2007
     3 – Negotiate hours of availability with
     customer to ensure adequate maintenance                                     Open
     window.
     4 – Finalize content and secure concurrence.                                Open

      Recommendation 3:             The CIS will follow existing Modernization and
                                    Information Technology Services organization standard
                                    procedures for configuration management/change
                                    management.

                   Corrective Actions                                    Status of Actions
     1 – Conduct review of policies and
     procedures for configuration/change                                         Open
     management.
     2 – Expand Enterprise Operations
                                                                                 Open
     organization staff availability.

2
 The Master Service Level Agreement serves as a binding mutual agreement of services and responsibilities
between the Modernization and Information Technology Services organization and the IRS business units.
                                                                                                       Page 16
                Correspondence Imaging System Performance Has Improved, but
                  Additional Measures Are Needed to Ensure That the System
                                    Performs As Expected




                                  An Applications Development/Enterprise Operations/End
    Recommendation 4:             User Equipment and Services organizational task force
                                  should be initiated to:

                   Corrective Actions                                  Status of Actions
    1 – Develop a set of software tools or scripts
    (programs) to automatically kick off scripts                              Open
    when system thresholds are reached.
    2 – Review and complete the standard
    operating procedures for each system at each                              Open3
    location.
    3 – Update troubleshooting guides for
                                                               Completed September 27, 2007
    addressing CIS problems.

      Recommendation 5:           The Enterprise Operations and Applications
                                  Development organizations should revisit the CIS
                                  Information Technology Contingency Plan and Disaster
                                  Recovery plan and enhance as necessary, and a failover
                                  test should be executed as soon as possible.

                   Corrective Actions                                  Status of Actions
    1 – Deploy and implement the production
                                                                 Completed January 24, 2008
    replacement servers.
    2 – Deploy and implement the Disaster
                                                                 Completed January 24, 2008
    Recovery replacement servers.
    3 – Test the Disaster Recovery/Replication
                                                                              Open
    process.
    4 – Devise monthly schedule for Enterprise
                                                               Completed September 27, 2007
    Computing Center-Martinsburg4 updates.




3
 The standard operating procedures were in draft form as of April 8, 2008.
4
 IRS Computing Centers support tax processing and information management through a data processing
and telecommunications infrastructure. The Enterprise Computing Center-Martinsburg is in
Martinsburg, West Virginia.
                                                                                                     Page 17
                    Correspondence Imaging System Performance Has Improved, but
                      Additional Measures Are Needed to Ensure That the System
                                        Performs As Expected




         Recommendation 6:            Training should be provided to the system administrators
                                      and database administrators as needed.

                      Corrective Actions                                    Status of Actions
       1 – Survey for training needs.                                 Completed August 14, 2007
       2 – Develop training.                                        Completed September 27, 2007
       3 – Deliver training.                                        Completed September 27, 2007

         Recommendation 7:            Continue to use OPNET5 tools to monitor local
                                      performance and response time.

                      Corrective Actions                                    Status of Actions
       1 – OPNET Monitoring – complete the full
       implementation of Panorama (monitoring
                                                                     Completed October 23, 2007
       and reporting software) in the CIS
       environment.
       2 – Determine operational responsibility for
                                                                    Completed November 20, 2007
       monitoring.
       3 – Provide OPNET training (Enterprise
       Operations and Applications Development
                                                                    Completed September 26, 2007
       organizations need to identify who needs to
       be trained).
     Source: Incident Analysis Team report and Treasury Inspector General for Tax Administration analysis of
     documents and discussions with IRS management.




5
    OPNET is an independent contractor providing monitoring and other defect-reporting software.
                                                                                                         Page 18
   Correspondence Imaging System Performance Has Improved, but
     Additional Measures Are Needed to Ensure That the System
                       Performs As Expected



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 19
Correspondence Imaging System Performance Has Improved, but
  Additional Measures Are Needed to Ensure That the System
                    Performs As Expected




                                                     Page 20
Correspondence Imaging System Performance Has Improved, but
  Additional Measures Are Needed to Ensure That the System
                    Performs As Expected




                                                     Page 21
